K I N G C O U N T Y P R O S E C U T I N G A T T O R N E Y’S O F F I C E
JUSTICE
COMPASSION

DANIEL T. SATTERBERG
PROFESSIONALISM

PROSECUTING ATTORNEY

INTEGRITY
LEADERSHIP

No. 20-830
STATE OF WASHINGTON,
Petitioner,
V.

SAID OMER ALI
Respondent.
AFFIDAVIT OF SERVICE

I, Amy R. Meckling, of lawful age, being duly sworn, state that on March 19, 2021, I
placed 1 package containing 3 copies of the State’s SUPPLEMENTAL BRIEFING
into the United States mail, postage prepaid, for delivery to counsel of record at the
address stated below. In addition, I sent an electronic copy to counsel of record at
the address stated below.
Corey Parker
Counsel of Record for Respondent
The Appellate Law Firm
300 Lenora St., Ste. 900
Seattle, WA 98121
corey@mltalaw.com

CRIMINAL DIVISION – APPELLATE UNIT • KING COUNTY COURTHOUSE W554
516 THIRD AVENUE • SEATTLE, WASHINGTON 98104
Tel: (206) 477-9497 • www.kingcounty.gov/prosecutor

